      United States Department of Agriculture




Office of Inspector General
USDA’s Controls Over Economy
Act Transfers and Greenbook
Program Charges




                                       50099-0001-23
                                       September 2014
                                      USDA’s Controls Over Economy Act Transfers and 
                                               Greenbook Program Charges 
                                                              
                                               Audit Report 50099-0001-23 
What Were OIG’s

Objectives

At the request of a U.S. Senate
Subcommittee on
Appropriations, we audited
USDA’s controls over the
transfers of appropriated funds   USDA Improperly Transferred Appropriated 
under the Economy Act and         Funds for a Greenbook Program and Did 
7 U.S.C. § 2263, referred to as   Not Ensure its Agencies Properly Supported 
Greenbook authority, to
determine whether they were       their Interagency Transfers Under the 
proper and used in accordance     Economy Act 
with their purposes.
                                  What OIG Found
What OIG Reviewed

We judgmentally selected to       The Office of Inspector General (OIG) audited the Department of
review 4 of 28 agencies’          Agriculture’s (USDA) use of fund transfers under the Economy Act
Economy Act agreements,           and 7 U.S.C. § 2263, referred to as “Greenbook authority.” We found
totaling $74 of $112 million      that, although Congress reduced funding for USDA’s Departmental
transferred to USDA               Administration and Office of Tribal Relations (OTR) for fiscal years
management, during FYs 2011       (FY) 2011 and 2012, USDA used these authorities, as well as its
and 2012. We also reviewed 6      Working Capital Fund, to fund staff that likely would have been
of about 30 Greenbook             affected by the reductions. As a result, USDA spent at least
programs that USDA                $3.7 million for salaries and benefits to fund staff that was not directly
administered during FYs 2010      appropriated to those accounts.
- 2012.
                                  We also found that USDA exceeded its Greenbook authority to pay
What OIG Recommends               for the Intertribal Technical Assistance Network (ITAN), since it
                                  improperly transferred $2.1 million from agencies that did not have
We recommend that USDA            the authority to fund ITAN activities. Finally, for controls over
strengthen its system for         Economy Act transfers, we found that USDA had not provided
approving, reviewing, and         sufficient direction and oversight to agencies to ensure they properly
tracking appropriated fund        supported the approximately $100 million in transfers made during
transfers, by implementing        FYs 2011 - 2012. Due to lack of support, we question $43 million in
controls and providing            transfers, since we were unable to conclude (1) whether the transfers
guidance and training to          were in the best interest of the Government and (2) how those funds
agency staff. Finally, USDA       were used.
needs to review previous
                                  USDA’s Office of the Chief Financial Officer (OFCO) agreed with
transfers, and adjust its
accounts to correct the           our findings and we accepted management decision on all
                                  12 recommendations.
improper ITAN funding.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          September 18, 2014

AUDIT
NUMBER:        50099-0001-23

TO:            Dr. Gregory Parham
               Assistant Secretary for Administration

               Jon Holladay
               Deputy Chief Financial Officer

ATTN:          Lenetta Elias
               Departmental Management

               Kathy Donaldson
               Office of the Chief Financial Officer

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       USDA’s Controls Over Economy Act Transfers and Greenbook Program Charges


This report presents the results of the subject review. Your written response to the official draft
report, dated August 22, 2014, is included in its entirety at the end of the report. Excerpts from
your response and the Office of Inspector General's position are incorporated into the relevant
sections of the report.

Based on your written response, we accept management decision for all 12 audit
recommendations in the report and no further response to us is necessary. In accordance with
Departmental Regulation 1720-1, final action on the management decision should be completed
within 1 year of the date of the management decisions to preclude being listed in the
Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.

cc:
Val Dolcini, Administrator, FSA, ATTN: Philip Sharp
Thomas Tidwell, Chief, FS, ATTN: Thelma Strong
Jason Weller, Chief, NRCS, ATTN: Leon Brooks
Kevin Shea, Administrator, APHIS, ATTN: Marilyn Holland
Table of Contents
Background and Objectives ................................................................................... 2
Section 1: USDA’s Use of Appropriated Funds Transfers ................................ 5
Finding 1: USDA Countered Appropriations Shortfalls With Transfers to
Maintain Staffing .................................................................................................... 5
          Recommendation 1 ........................................................................................8
          Recommendation 2 ........................................................................................8
          Recommendation 3 ........................................................................................8
Section 2: USDA Greenbook Programs ............................................................. 10
Finding 2: USDA Improperly Collected Funds From 21 Agencies for a
Greenbook Program ............................................................................................. 10
          Recommendation 4 ......................................................................................12
          Recommendation 5 ......................................................................................12
Finding 3: USDA Did Not Have Sufficient Controls Over Greenbook
Programs ................................................................................................................ 13
          Recommendation 6 ......................................................................................15
          Recommendation 7 ......................................................................................15
          Recommendation 8 ......................................................................................16
Section 3: USDA’s Transfer of Appropriated Funds Under the Economy Act
................................................................................................................................. 17
Finding 4: OCFO Needs to Improve Its Oversight and Guidance for Economy
Act Agreements ..................................................................................................... 17
          Recommendation 9 ......................................................................................20
          Recommendation 10 ....................................................................................20
          Recommendation 11 ....................................................................................21
          Recommendation 12 ....................................................................................21
Scope and Methodology ........................................................................................ 22
Abbreviations ........................................................................................................ 25
Exhibit A: Summary of Monetary Results ........................................................ 26
Exhibit B: List of Departmental Management Agencies ................................. 27
Exhibit C: Amounts to be Refunded to Agencies Charged for ITAN in Error
................................................................................................................................. 28
Exhibit D: List of Greenbook Programs FYs 2010 through 2012 ................... 29
Exhibit E: Economy Act Judgmental Sample Results ..................................... 30
Agency's Response ................................................................................................ 31

                                                                                   AUDIT REPORT 50099-0001-23                    1
Background and Objectives 
Background
On June 14, 2012, the Chairman and Ranking Member of the Subcommittee on Agriculture,
Rural Development, Food and Drug Administration, and Related Agencies of the Committee on
Appropriations of the U.S. Senate (Senate Subcommittee) requested that the Office of Inspector
General (OIG) conduct an audit of the Department of Agriculture’s (USDA) use of Economy Act
transfers. The Subcommittee was concerned because USDA management had proposed to use
its Economy Act authority to transfer approximately $4.6 million from other USDA agencies and
offices in order to supplement Departmental Management’s fiscal year (FY) 2012 appropriation.1
As part of this review, the Subcommittee also requested that we evaluate USDA’s use of
Departmental reimbursable agreements, commonly referred to as Greenbook charges (hereafter
referred to as Greenbook programs), that provide for the transfer of funds. Because transfers
between appropriations accounts are prohibited generally in the absence of specific legal
authority, the Subcommittee was concerned that the transfers were not legally supported or
documented.2

Congress provides the Department and its agencies funding through appropriation acts. In
FY 2011, Congress specifically reduced the appropriation amounts for USDA’s Departmental
Administration and the Office of Tribal Relations (OTR).3 Congress made additional reductions
in FY 2012 to the appropriations of those two offices. Departmental Administration’s
appropriation was reduced from $41 million in FY 2010 to $30 million in FY 2011, and then to
$24 million in FY 2012. Similarly, OTR’s appropriation was reduced by over half, from
$1 million in FY 2010 to $499,000 in FY 2011, and then to $448,000 in FY 2012.

USDA has a variety of legal authorities that authorize the transfer of appropriated funds. One
such authority is the Economy Act.4 The Economy Act authorizes Federal agencies and their
components to enter into agreements with each other to purchase goods or services, provided that
both the requesting and servicing agency adhere to specific criteria. The requesting agency must
determine the agreement to be in the best interest of the Government, that the goods or services
cannot be obtained as conveniently or economically from a commercial enterprise, and that it has
funds available. In addition, the servicing agency or unit responsible for filling the order must be
able to provide, or obtain by contract, the ordered goods or services. The legal requirement to
document these determinations only applies if the goods or services will be provided by contract
with an entity outside the Federal Government.5 Although documentation is not required for




1
  For the purposes of this report, agencies and offices will hereinafter be referred to as “agency” or “agencies.”
2
  31 United States Code (U.S.C.) § 1532 (prohibiting withdrawing funds from one appropriation account and
crediting to another unless authorized by law); Government Accountability Office (GAO), Glossary of Terms,
GAO-05-734 (9/05), page 95 (defining transfer as the shifting of budget authority from one appropriations account
to another).
3
  Departmental Administration is one of several agencies, including the Office of Advocacy and Outreach (OAO)
and the Office of the Chief Information Officer (OCIO), that are collectively called Departmental Management.
4
  31 U.S.C. § 1535.
5
  48 Code of Federal Regulations (C.F.R.) 17.503(a).

2     AUDIT REPORT 50099-0001-23
intergovernmental agreements, the GAO considered it a sound practice and a desirable internal
control.6

Another transfer authority is USDA’s Greenbook (or Shared Cost) authority. USDA uses its
Greenbook authority to pool funds by charging the appropriations accounts of its agencies to pay
for programs that benefit multiple agencies, provided the agencies charged have the authority to
purchase that service on their own.7 USDA uses this authority to fund programs and to authorize
certain Departmental reimbursable agreements. Greenbook programs include Presidential and
Secretarial initiatives, as well as other activities and services, such as the Emergency Operations
Center and the Intertribal Technical Assistance Network (ITAN).8

USDA’s Office of the Chief Financial Officer (OCFO) is primarily responsible for the approval
and oversight of funding for Greenbook programs. However, in October 2009, USDA
reorganized its management structure by moving several agencies, such as OCFO and
Departmental Administration, under Departmental Management (see Exhibit B). Within
Departmental Management, the Secretary established Management Services under the direction
of the Assistant Secretary for Administration (ASA). Management Services took over some
budget and fiscal responsibilities from OCFO, which included approval and oversight of
Greenbook programs. However, Departmental Management was not separately funded through
Congressional appropriations. Effective September 1, 2012, the Secretary dissolved
Management Services and moved approval and oversight for Greenbook programs back to
OCFO.

USDA has other legal authorities to transfer appropriated funds, including the authority to
transfer funds to its Working Capital Fund. The Working Capital Fund may be credited with
advances or reimbursements to recover the costs of services provided under centralized
management to USDA agencies (subject to the approval of the Director, Office of Management
and Budget (OMB)). Those services include, but are not limited to: central supply services
(including forms and publications warehousing and distribution), financial and accounting
services, and telephone and information technology services.9 USDA also uses the Working
Capital Fund to deposit and retain—without fiscal year limitation—purchase card rebates it
receives for purchases made by its agencies. Congress authorized the Secretary to use those
purchase card rebates to fund management initiatives of general benefit to USDA, as determined
by the Secretary or the Secretary’s designee.10 Improper use of any transfer authority (e.g.,
Economy Act, Greenbook, Working Capital) could lead to an Antideficiency Act violation.

The Antideficiency Act prohibits Federal entities from making expenditures or obligations in
excess of the amounts available in an appropriation. 11 Once it is determined that there has been
a violation of the Antideficiency Act, the agency head shall report immediately to the President,
Congress, and the Comptroller General all relevant facts and a statement of all actions taken to



6
  GAO, Interagency Agreements: Fiscal Year 1988 Agreements of Selected Agencies were Proper, (GAO/AFMD-
88-72, September 1988).
7
  7 U.S.C. § 2263.
8
  ITAN provides funding for outreach and technical assistance to Native American farmers and ranchers.
9
  7 U.S.C. § 2235.
10
   7 U.S.C. § 2235a.
11
   31 U.S.C. § 1341.

                                                                  AUDIT REPORT 50099-0001-23              3
address and correct the Antideficiency Act violation.12 An agency also should include a request
for a supplemental or deficiency appropriation when needed.13,14

In October 2009, GAO reported that USDA needed to improve its accountability over
Greenbook programs and related charges.15 GAO recommended that USDA establish and
document control activities for managing the charges for Greenbook programs, and track the
benefits of those programs to its agencies. In USDA’s response, the Department agreed to
implement all recommendations made in the report, and specifically agreed to document its
decision-making process for the approval of Greenbook programs.

Objectives
Our audit objectives were to evaluate the adequacy of management controls over the
Department’s Economy Act transfers, whether such transfers of funds were properly executed,
and whether funds were used in accordance with their specified purposes. Secondly, we
evaluated the Department’s collection and use of funds under Departmentwide reimbursables,
commonly referred to as Greenbook charges.




12
   31 U.S.C, § 1351.
13
   OMB Circular A-11, Preparation, Submission, and Execution of the Budget, § 145.
14
   Federal employees who violate the Antideficiency Act are subject to two types of sanctions: administrative and
penal. Employees may be subject to suspension from duty without pay, removal from office, and subject to fines,
imprisonment, or both.
15
   GAO, Internal Control Would Improve Accountability for Certain Centrally Provided (Greenbook) Programs,
(GAO-10-82, October 2009).

4     AUDIT REPORT 50099-0001-23
Section 1:  USDA’s Use of Appropriated Funds Transfers 
Finding 1: USDA Countered Appropriations Shortfalls With Transfers to
Maintain Staffing
Although Congress reduced USDA’s appropriations for Departmental Administration and the
OTR in FYs 2011 and 2012, USDA used various transfer authorities, including the Economy Act
and its Greenbook authority, to fund Departmental Administration and OTR staff that likely
would have been affected by the cuts. While most of these transfers were proper, we identified
two transfers of $75,000 each, where the Forest Service (FS) inappropriately transferred funds to
OTR under the Economy Act. Since FS did not directly receive goods or services from OTR, the
transfer did not meet Economy Act requirements. This occurred because the Department had not
issued sufficient guidance to agency Chief Financial Officers (CFO) on the specific requirements
of the many available transfer authorities. Consequently, we found CFOs were generally
unaware of the risks in transferring appropriated funds without first determining the legal
requirements for those transfers. USDA used various transfer authorities to pay approximately
$3.7 million in salaries and benefits for Departmental Administration and OTR staff. While two
of the transfers to pay for OTR staff were improper, under the Economy Act, USDA was able to
avoid a violation of the Antideficiency Act because it had other legal authority (Greenbook
authority) available to properly support the transfer of $150,000 of FS funds.

The Antideficiency Act prohibits Federal entities from making expenditures or obligations in
excess of the amounts available in an appropriation.16 A transfer of appropriated funds is
prohibited unless “authorized by law,”17 and Congress has enacted several authorities to allow
for transfers of appropriated funds between appropriation accounts, some of which include the
Economy Act,18 Working Capital Fund,19 and the Greenbook authority.20

As stated earlier, the Senate Subcommittee requested that we determine whether USDA used its
Economy Act transfer authority to supplement its funding. Specifically, the Subcommittee stated
that it was aware that Departmental Administration proposed to transfer approximately
$4.6 million from other USDA agencies to supplement its FY 2012 appropriations. After
performing our review, we determined that USDA planned to use or transfer about $4.9 million
to pay for Departmental Administration staff that was no longer funded through direct
Congressional appropriation. However, for FY 2012, USDA actually used or transferred over
$3.5 million, which was less than it had originally planned. USDA also transferred over
$200,000 in FY 2011 to cover shortfalls within OTR. Overall, approximately $3.7 million was
transferred during FYs 2011 and 2012.




16
   31 U.S.C. § 1341. Once it is determined that there has been a violation of the Antideficiency Act, the agency head
shall report immediately to the President and Congress all relevant facts and a statement of actions taken to address
and correct the violation.
17
   31 U.S.C. § 1532.
18
   31 U.S.C. § 1535.
19
   7 U.S.C. § 2235.
20
   7 CFR 2263.

                                                                          AUDIT REPORT 50099-0001-23               5
        Economy Act Agreements

        For approximately $900,000 of the $3.7 million, Departmental Administration used the
        Economy Act authority to allow 16 agencies to transfer funds that paid the salaries and
        benefits of 9 staff. This included two Economy Act agreements between FS and OTR, by
        which FS transferred a total of $150,000 in FYs 2011 and 2012 to help pay for the salary
        of one OTR employee. Under an Economy Act agreement, a requesting agency pays for
        a good or service from a servicing agency, which provides the good or service. We found
        that the two agreements with FS did not appear to be valid, as OTR did not provide FS
        with a good or service.

        In order to determine the validity of those two Economy Act agreements, we requested
        the views of USDA’s Office of the General Counsel (OGC). The agreements required FS
        to fund a portion of the salary and benefits of an OTR employee performing work on a
        report to the Secretary of Agriculture (Secretary) on Native American sacred sites. OGC
        viewed the agreement as lacking an acquisition-type arrangement, whereby FS was
        acquiring the services of OTR, and was therefore inappropriate. Since the OTR
        employee had already been working for the Secretary on the same report prior to the
        Economy Act agreement, and nothing changed with regard to the employee’s work once
        FS began paying the employee’s salary—FS did not receive an actual good or service.

        However, OGC further stated that the arrangement could have been properly structured
        using USDA’s Greenbook authority, instead of the Economy Act.21 Therefore, according
        to OGC, the inappropriate use of the Economy Act agreement did not give rise to an
        inappropriate use of appropriations that could result in an Antideficiency Act violation.

        If USDA converts its use of the Economy Act authority to using the Greenbook authority
        for the FY 2012 agreement, the Department may be required to notify both the Senate
        and House Appropriations Committees. In USDA’s FY 2012 Appropriations Act,
        Congress stipulated that whenever USDA used its Greenbook authority to increase funds
        or personnel for any project or activity where funds were denied or restricted, it must
        notify Congress at least 30 days in advance and receive confirmation of receipt of
        notice.22 USDA should seek OGC’s opinion on whether it needs to timely notify
        Congress regarding its use of the Greenbook authority to transfer FY 2012 funds. After
        interviewing four agency CFOs within the Department, we found they were unaware of
        the complex nature of transfer authorities because USDA had not issued specific
        directives or policies regarding the requirements. For example, the FS CFO and staff
        stated they did not distinguish between fund transfers to the Department under the
        Economy Act or Working Capital Fund authorities. The FS CFO stated the Department’s
        OCFO never informed the agency it was using the Economy Act incorrectly, so FS
        continued to handle fund transfers the way it had always done. The CFOs from three
        other agencies made similar statements regarding OCFO’s oversight.23 While the

21
   In its August 7, 2013, letter to OIG, OGC opined that the Greenbook authority was appropriate for the transfer
since it “has no actual cost requirement like the Economy Act.”
22
   Consolidated And Further Continuing Appropriations Act, 2012, Public Law 112-55, Section 730 (a),
(November 18, 2011).
23
   The Farm Service Agency (FSA), Natural Resources Conservation Service (NRCS), and Animal and Plant Health
Inspection Service (APHIS).

6     AUDIT REPORT 50099-0001-23
        ultimate responsibility for the transfers lies with individual agencies, the Department’s
        OCFO is responsible for providing policy guidance and oversight of USDA’s agency
        financial management personnel, activities, and operations.

        Both OGC and OCFO officials agreed that transferring funds is a complicated issue and
        agencies need to be aware of the various requirements associated with different
        authorities and the risks of failing to use the proper authority to transfer funds. In
        September 2013, OCFO took prompt action to address our concerns through issuance of a
        new directive establishing USDA policy for interagency transactions entered into
        pursuant to the Economy Act.24 OGC also agreed agency CFOs and procurement staff
        need to be better trained in the various transfer authorities, and has developed a two-part
        training program to be completed by appropriate agency staff. We believe the new
        directive and training will provide USDA agencies with the information needed to reduce
        the risk of inappropriately transferring funds.

        Working Capital Fund and Greenbook Programs

        For approximately $2.8 million of the $3.7 million used or transferred between USDA
        agencies in FYs 2011 and 2012, USDA used its authority under the Working Capital
        Fund and its Shared Cost (i.e., Greenbook) authority to fund Departmental
        Administration and OTR staff. The statute establishing a Working Capital Fund in
        USDA provides the Department the means to finance certain services provided on a
        centralized basis, the costs of service to USDA agencies to be recovered either by
        reimbursement or through advances.25 The Secretary or the Secretary’s designee has
        additional statutory authority to deposit proceeds from purchase card rebate programs to
        the Working Capital Fund for use, without fiscal year limitation, for “management
        initiatives of general benefit to USDA bureaus and offices.”26 We determined that USDA
        had authority to use $2.7 million of its rebate and Working Capital Funds to pay for the
        salaries and benefits of 24 employees in Departmental Administration and OTR.

        We also determined USDA used its Greenbook authority to transfer funds from various
        USDA agencies to OTR for a Greenbook program called ITAN. USDA used
        $158,616 of ITAN funds to pay the salaries and benefits of two OTR officials. Various
        USDA agencies contributed funds to pay for ITAN expenses (for more information on
        the nature of ITAN charges and transfers, see Finding 2).

Without clear directives and training on the legal authorities under which USDA may transfer
funds, there is an increased risk of USDA making additional improper transfers and violating the
Antideficiency Act. Therefore, USDA should provide training, guidance, and other measures
necessary to ensure the proper use of appropriated funds.




24
   Departmental Regulation 2235-001, Economy Act Agreements, dated September 27, 2013.
25
   7 U.S.C. § 2235.
26
   7 U.S.C. § 2235a.

                                                                    AUDIT REPORT 50099-0001-23      7
Recommendation 1
Provide guidance and training to all USDA CFOs and appropriate agency staff on the
requirements for using the various transfer authorities available to the Department, including the
Economy Act, USDA’s Greenbook authority, and USDA’s Working Capital Fund authority.

Agency Response
In OCFO’s response, dated August 22, 2014, officials stated that Departmental Regulation No.
2235-001, Economy Act Agreements, was issued on September 27, 2013, establishing
Departmental policy for interagency transactions entered into pursuant to the Economy Act,
31 U.S.C. 1535. Departmental Regulation No. 2236-001, Shared Cost Programs (SCP), was
issued on March 14, 2014, identifying and establishing, where necessary, individuals and
organizations responsible for the financial health of and efficient operation of activities
supported by SCPs. OCFO will be providing additional training, by December 30, 2014, to
USDA CFOs and appropriate agency staff on the various transfer authorities.

OIG Position
We accept management decision for this recommendation.

Recommendation 2
Contact all agency CFOs to determine if they understand the proper use of the Economy Act to
transfer funds and implement additional training and guidance as necessary.

Agency Response
In their August 22, 2014 response, OCFO officials stated that on September 27, 2013, they
issued Departmental Regulation No. 2235-001, Economy Act Agreements, establishing
Departmental policy for interagency transactions entered into pursuant to the Economy Act,
31 U.S.C. 1535. OCFO will be providing additional training, by December 30, 2014, to USDA
CFOs and appropriate agency staff on the proper use of the Economy Act to transfer funds.

OIG Position
We accept management decision for this recommendation.

Recommendation 3
Obtain OGC’s opinion on whether USDA needs to timely notify Congress of its use of the
Greenbook authority, rather than the Economy Act, to transfer FY 2012 funds from FS to the
OTR to pay $75,000 in salaries and benefits for OTR staff.27




27
     The requirement to notify Congress only applied to FY 2012 transfers.

8        AUDIT REPORT 50099-0001-23
Agency Response
In their August 22, 2014 response, OCFO officials stated that they are working with OGC to
address OIG's recommendation about the transfer of FY 2012 funds from FS to the OTR. OCFO
will notify OIG, by November 30, 2014, when a determination has been made.

OIG Position
We accept management decision for this recommendation.




                                                         AUDIT REPORT 50099-0001-23     9
Section 2:  USDA Greenbook Programs 
Finding 2: USDA Improperly Collected Funds From 21 Agencies for a
Greenbook Program
USDA’s ASA office, through the now-disbanded Management Services (MS) division, exceeded
its authority by charging USDA agencies for a Greenbook program called ITAN. For 21 of the
27 agencies that contributed, the transfers were improper, as the agencies did not have the
authority to fund ITAN-related activities with their appropriations.28 This occurred in spite of
the fact that OGC provided prior advice to ASA and MS officials that charging the 21 agencies
for ITAN may not be permissible. In addition, the ASA’s office did not document the
decision-making process for funding ITAN. At OIG’s request, OGC later issued a legal opinion
in FY 2013, finding that only certain agencies had authority to make the transfers to fund ITAN-
related activities.29 As a result, 21 agencies improperly transferred $2.1 million from FY 2010
through FY 2012, and the 6 USDA agencies with authority to fund ITAN-related activities had
their appropriations accounts improperly augmented (i.e., increased). This could have resulted in
an Antideficiency Act violation; however, USDA avoided a violation because the six agencies in
question had sufficient unobligated funds (over $1 billion) for the 3 fiscal years to cover any
adjustments needed to properly fund ITAN.30

Federal agencies are prohibited from transferring or sharing resources between appropriations
accounts, unless otherwise authorized by law. USDA’s Greenbook authority authorizes the
Department to charge the appropriations accounts of its agencies in order to provide certain
central programs that benefit those agencies. However, USDA’s Greenbook authority authorizes
transfers only if each contributing agency has the authority to purchase those same services on its
own. For example, if a Greenbook program would spend funds on grants to entities outside
USDA, then each agency contributing to that program must have appropriations available for
such grants.

In 2010, USDA created ITAN within OTR as part of the settlement of Keepseagle v. Vilsack,31 a
class action civil rights lawsuit alleging USDA discrimination against Native Americans.
Through ITAN, USDA provided funding to the Intertribal Agriculture Council, a
Congressionally chartered, non-profit organization that provides outreach and technical
assistance to Native American farmers and ranchers. The settlement states that “USDA, through
efforts of FSA and [OTR], will enhance the service for Native American farmers and
ranchers…” in areas such as business skills, leasing requirements, and the development of tribal




28
   During FY 2013, there were a total of 29 USDA agencies, but the Office of the Secretary (OSEC) and the Office
of the Executive Secretariat were not charged for Greenbook programs (see Finding 3 for more information). For
FYs 2010 and 2011, the Office of Advocacy and Outreach (OAO) and the Office of Homeland Security and
Emergency Coordination (OHSEC) did not contribute towards ITAN, as those offices were newly formed in those
years and had very few staff for OCFO to bill in a cost-effective manner. Those offices did contribute in FY 2012.
29
   Based on the OGC opinion, OCFO determined that only FS, FSA, National Institute of Food and Agriculture
(NIFA), NRCS, OAO, and Rural Development (RD) had the authority to fund ITAN.
30
   While agency officials provided explanations as to why they kept the unobligated balances we did not perform
any additional field work to verify the accuracy of the agencies’ statements.
31
   Keepseagle et al. v. Vilsack, Cal: 99CV03119 (D.D.C.).

10      AUDIT REPORT 50099-0001-23
agricultural advocates.32 Our review found that ITAN was an appropriate Greenbook-type
program. However, as described below, the method USDA used to fund that program was not
appropriate.

In February 2010, an MS budget official contacted OGC, indicating the Department wanted to
fund ITAN through a Greenbook assessment on all USDA agencies. In its reply the following
day, OGC advised both senior MS and OTR officials that, while OGC was unsure of what
specific activities would be carried out under ITAN, OGC doubted that ITAN could be funded
by all USDA agencies. OGC stated in an email to MS officials that such an assessment would
likely not be permissible. Based on our review of OGC’s emails and its written opinion, we
determined that, during the summer of 2010, OGC continued to discuss the issue with senior
OTR and MS officials. OGC maintained the position that, while the use of the Greenbook
authority could be appropriate for certain USDA agencies to fund ITAN’s activities, it would not
be appropriate to obtain funds from all USDA agencies for that purpose. However, in September
2010, contrary to OGC’s advice, USDA approved ITAN as a Greenbook program and funded it
by charging 27 USDA agencies.33

Senior USDA officials stated that they relied on certain appointed and career-level budget
officials to ensure programs such as ITAN were properly funded. Officials from the Office of
the Secretary confirmed that this was the previous policy. Thus, we attempted to identify how
the ITAN funding decision was made. However, MS did not document the decision process, and
most of the senior officials directly involved in the decision have since left the Department.
When we spoke with the OCFO and Administration officials who did remain, they stated they
did not remember who made the decision.
In light of this situation, we requested OGC provide us with a legal opinion about whether
funding ITAN through a Greenbook assessment on USDA agencies was appropriate. OGC’s
April 4, 2013, response stated that, while the Greenbook authority itself was appropriate for
ITAN, only those six agencies that received appropriated funds available for outreach to socially
disadvantaged farmers and ranchers could fund the ITAN-related activities. Based on this
opinion, we concluded that the agencies that were specifically mentioned in OGC’s opinion—
FSA, NRCS, and other agencies (as stated in the following paragraph) that engage in such
outreach—had their appropriation accounts improperly augmented by the 21 other USDA
agencies whose funds were improperly transferred to ITAN.
Since MS was dissolved, OCFO officials are now responsible for administering Greenbook
assessments. OCFO officials agreed with OGC’s opinion, and determined that six agencies (FS,
FSA, NIFA, NRCS, OAO, and RD) had available appropriations to fund ITAN-related activities.
In order to correct these errors, USDA will need to adjust these appropriations accounts. This
will include returning amounts to the 21 agencies that did not have available appropriations for
ITAN and charging additional amounts to those 6 agencies that had available appropriations for
ITAN (see Exhibit C). OCFO reported that the 6 agencies in question maintained over $1 billion
in unobligated funds for FYs 2010 through 2012 and would be able to make the required
adjustments. OCFO decided that the agencies should use their unobligated funds to pay for the
$2.1 million in improper ITAN funding, and has initiated the process to return the funds. If

32
   Settlement agreement at 36, dated November 1, 2010, Keepseagle v. Vilsack, Civil Action No. 1:99CV03119
(EGS) (D.D.C.).
33
   Between FY 2010 and FY 2012, USDA collected almost $6 million from 27 different agencies to fund ITAN.

                                                                    AUDIT REPORT 50099-0001-23               11
adequate unobligated funds had not been available in the 6 accounts to make the adjustments
required, an Antideficiency Act violation would have occurred, as the agencies would have had
to obligate appropriations accounts that did not have sufficient funds.
While USDA’s Greenbook authority authorizes transfers, USDA should follow OGC’s advice
and specifically examine whether individual agencies’ funds are available for the particular
activities ITAN will engage in. We note that OCFO formed a committee to review all
FY 2014 Greenbook programs, and it met as recently as March 2014. OCFO also issued a new
Departmental regulation in March 2014. The new regulation documented the responsibilities
and procedures for administration of Greenbook programs which would include ITAN.34 OCFO
should continue this process and fully document its decision making on ITAN, so that the
Department can have assurance that any transfer of funds is proper.

Recommendation 4
For FYs 2010 through 2012, obligate sufficient funds from the 6 agencies that had available
appropriations to fund the ITAN-related activities, and return the $2.1 million improperly paid
by the 21 agencies that funded ITAN activities.

Agency Response
In OCFO’s response, dated August 22, 2014, agency officials stated that they concluded based
on OGC's counsel, that only the OAO, FSA, FS, NIFA, NRCS, and RD had the appropriate
authority to pay for the ITAN-related activities. OCFO officials also stated that prior to the close
of FY 2013 (September 30, 2013), the necessary accounting adjustments were made for
FYs 2010 through 2012 to fully charge the 6 permissible agencies and offices, and refunds were
processed for the 21 agencies and offices that improperly funded ITAN activities
(September 30, 2013).

OIG Position
We accept management decision for this recommendation.

Recommendation 5
Prior to funding future ITAN-related activities, establish a documented process that includes a
committee review, with participation from OGC, to determine which agencies have
appropriations available to pay for those specific activities or programs and, thus, ensure that
transfers of funds are proper and that USDA does not violate the Antideficiency Act.

Agency Response
In their August 22, 2014 response, OCFO officials stated that it has established a process to
ensure the transfers from agencies and staff offices are proper and that the Antideficiency Act is
not violated. The officials further stated that Departmental Regulation No. 2236-001, Shared
Cost Programs (SCP), dated March 14, 2014, establishes the SCP Advisory Committee as a
high-level, senior management group that provides the ASA and the CFO with advice and

34
     Departmental Regulation 2236-001, Shared Cost Programs, dated March 14, 2014.

12         AUDIT REPORT 50099-0001-23
counsel with regard to management of the SCPs. In addition, one representative from OGC is on
the Advisory Committee to review legal issues that may arise.

OIG Position
We accept management decision for this recommendation.

Finding 3: USDA Did Not Have Sufficient Controls Over Greenbook
Programs
USDA did not have a documented process to properly establish, fund, or review its
approximately 30 Greenbook programs.35 Instead, senior USDA officials relied upon career-level
budget officials to allocate Greenbook charges, based on an unwritten policy. This occurred
because USDA did not complete the process of creating and documenting control activities to
manage Greenbook programs, as recommended by GAO in 2009.36 OCFO started this process in
FY 2010 when a newly formed committee met to oversee the approval of Greenbook programs
and charges. However, neither the process nor the committee was carried forward when USDA
reorganized OCFO budget functions and other offices into the newly formed MS.37 Ultimately,
no Greenbook controls were documented or finalized and the committee never met again. As a
result, USDA did not determine whether the approximately $98 million in Greenbook program
charges made from FY 2010 to FY 2012 were proper (see Finding 2 for an example of improper
charges). In addition, we found that, while USDA viewed Greenbook programs as benefiting the
Department as a whole and charged all other agencies for these programs, OSEC was not
charged for many of the Greenbook programs from FY 2010 through FY 2012. 38

Under Federal internal control standards, agencies must accurately and timely record transactions
and events, and maintain appropriate documentation of their transactions and internal controls. 39
Prior to October 2009, OCFO was responsible for Greenbook programs,40 and GAO reviewed
OCFO’s controls over Greenbook programs during this timeframe. In October 2009, GAO
issued a report recommending the Department establish and document control activities to
manage Greenbook programs. In response, USDA agreed to document the decision-making
process, and OCFO issued a memorandum explaining specific expectations on how program
managers were to run the various Greenbook programs.41 However, while OCFO was beginning
to implement policies to address GAO’s recommendations, a Secretary’s memorandum


35
   In FY 2010 there were 31 Greenbook programs, including Pre-authorized Funding. In FY 2011 there were
28 programs, and in FY 2012 there were 29 programs. Pre-authorized Funding is an umbrella program that funds
8 through 12 Secretarial initiatives. In effect, each initiative has its own activities and is considered a separate
program (see Exhibit D).
36
   GAO, Internal Control Would Improve Accountability for Certain Centrally Provided (Greenbook) Programs,
(GAO-10-82, October 2009).
37
   OCFO officials stated that officials within MS decided not to carry the process forward unless new Greenbook
programs were created. However, we could not confirm this information as the decision makers within MS had
since retired.
38
   OAO and OHSEC were also not charged for Greenbook programs at certain times during FYs 2010 through
2012, but these agencies ultimately contributed some Greenbook funding based on their Full-time Equivalenty
(FTEs).
39
   GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, page 12, November 1999.
40
    7 U.S.C. § 2263, as amended.
41
   Fiscal Year 2010/2011 Operating Budget, March 16, 2010.

                                                                         AUDIT REPORT 50099-0001-23                13
established MS under the ASA’s office in FY 2010.42 This shifted authority over Greenbook
programs from OCFO to MS. In September 2012, another Secretary’s memorandum dissolved
MS and shifted the authority for Greenbook programs back to OCFO. The Department’s overall
responsibility to ensure the proper use of appropriated funds for Greenbook programs did not
change during these shifts.

The Senate Subcommittee subsequently requested that OIG evaluate whether Greenbook
program fund transfers were appropriate and conducted in accordance with established
regulation and guidance. Our review found that the Department did not use this funding tool
appropriately, since it did not properly allocate charges or ensure agencies had legal authority to
transfer funds. Senior USDA officials relied on the judgment of an appointed official and other
staff to establish, fund, and allocate the approximately $32 million in annual transfers to
Greenbook programs.

When MS took authority over Greenbook programs, it did not continue the control activities
OCFO had been developing. In addition, MS did not maintain the one control that OCFO had
developed—a committee to review and advise on Greenbook funding (hereinafter referred to as
the Greenbook committee).43 In August 2010, the Greenbook committee released
recommendations on funding levels and new programs, such as funding ITAN through existing
appropriations. However, the recommendations were not binding, and MS chose not to follow
several of them.44 According to OCFO officials, the Greenbook committee did not meet in
subsequent years, due to flat funding levels and a lack of new programs. After hearing about our
general concerns on Greenbook programs, OCFO agreed to re-implement the Greenbook
committee for FY 2014 with input from both the ASA’s office and OGC.

We also found that USDA did not document its decisions on allocating Greenbook program
charges. USDA budget officials relied on an undocumented policy of charging almost all
agencies for Greenbook programs, based on an agency’s FTE staff count.45 Budget officials said
they established this method because the majority of Greenbook programs provided an intangible
benefit to the Department as a whole and, therefore, they believed that every agency should be
charged. However, the Department followed this policy without determining whether each
agency had authority to contribute to each program pursuant to USDA’s Greenbook authority.
This is a critical determination because, as we discussed in Finding 2, OGC determined that 21
agencies were improperly charged to fund the ITAN Greenbook program.46 We are concerned
that the same issue could affect other Greenbook programs in the Department (see Exhibit D for
a list of Greenbook programs).47



42
   Management Functions Within Office of the Secretary, June 6, 2009, effective October 1, 2009.
43
   The first Greenbook committee did not include a representative from OGC, which is critical in determining which
agencies can properly pay for particular Greenbook programs.
44
   The committee recommended that Virtual University be funded at $500,000 and ITAN at $1 million; however,
MS funded those programs at approximately $1.4 million and $2 million, respectively. In addition, the committee
recommended that the goals of ITAN would likely be better met by using existing USDA resources currently funded
through mission area appropriations; nevertheless, the program continued to be funded through Greenbook.
45
   Although USDA used a handful of other methods to calculate charges to agencies, such as per usage, the vast
majority of program funding mechanisms followed the FTE model.
46
   OGC’s determination was based on the agencies’ appropriation language.
47
   In FY 2012 there were 29 Greenbook programs.

14      AUDIT REPORT 50099-0001-23
In addition we found that OSEC’s FTEs were not included in the total FTE numbers that were
used for determining Greenbook funding allocations. OSEC was therefore exempt from
Greenbook charges.48 Since the allocation practice was undocumented, USDA was not able to
provide an explanation or justification for exempting OSEC. When we pointed this out to an
official in OCFO, he stated that OSEC should have contributed to these Greenbook programs.
OCFO took immediate action related to this finding and issued a new Departmental regulation in
March 2014.49 In addition to documenting the responsibilities and procedures for administration
of these programs, the new regulation also reestablished the Greenbook committee. The
committee met in March 2014 and included Departmental Management, OCFO, and OGC staff
to determine whether there is legal support to maintain and fund the Greenbook programs.

These are positive developments, and OCFO can continue this trend by ensuring that it
documents the entire funding process and fairly allocates Greenbook program charges. The
Department should also review Greenbook funding for FYs 2010 through 2012 to determine if
any agency was improperly charged. Implementing sufficient controls over the Greenbook
process will decrease the risk of improper charges and of a possible Antideficiency Act violation
in the future.

Recommendation 6
Work with OGC to determine whether there is legal support to maintain the remaining
Greenbook programs, and to ensure participating agencies and offices have authority to fund
those programs.

Agency Response
In OCFO’s response, dated August 22, 2014, officials stated that they established a process to
confirm the legal support for all SCPs; and that the agencies and offices have the proper
authority to fund those programs. The officials also stated that Departmental Regulation No.
2236-001, Shared Cost Programs, establishes the SCP Advisory Committee and one
representative from OGC is on the committee to opine on the agencies and offices that have the
specific authorities to fund the SCPs. The officials further stated that in the opinion of OGC, the
FY 2014 SCPs met the requirements of 7 U.S.C. 2263 and the cost distribution methods were
acceptable. All corrective actions were completed by May 5, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 7
Determine, in consultation with OGC, whether Greenbook program charges for FY 2010 through
FY 2012 were proper, including whether OSEC should have been charged for these programs. If
necessary, perform accounting adjustments for agencies and offices that were not charged
properly.


48
     OSEC did make some small payments for “pay per use” Greenbook programs such as document security.
49
     Departmental Regulation 2236-001, Shared Cost Programs, dated March 14, 2014.

                                                                     AUDIT REPORT 50099-0001-23          15
Agency Response
In their August 22, 2014 response, OCFO officials stated that OGC opined on the FY 2014 SCPs
and determined that the SCPs for the FY 2014 program cycle were proper. OCFO officials also
stated that these same programs have been in place since at least 2010 and have remained
unchanged during this period. Further, they stated that the OGC review included the revised
income recovery plan for the ITAN program, it was determined that OSEC should have been
charged for these SCPs. In addition, according to OCFO officials, accounting adjustments were
performed in September 2013 that charged OSEC for their applicable shares and refunds were
given to the applicable agencies and offices.

OIG Position
We accept management decision for this recommendation.

Recommendation 8
Work with Departmental Management and OGC to develop and implement a process to
establish, review, and fund USDA’s Greenbook programs. This process should include
procedures for determining and documenting the benefits provided by each program, obtaining
guidance from OGC on which agencies and offices have available appropriations for a proposed
program; and fairly allocate program costs.

Agency Response
In their August 22, 2014 response, OCFO officials stated that it had a process to establish,
review, and fund USDA's Greenbook programs. Departmental Regulation No. 2236-001, Shared
Cost Programs, dated March 14, 2014, establishes the SCP Advisory Committee. The SCP
Advisory Committee serves as the primary representative body for Under and Assistant
Secretaries whose agencies reimburse for programs administered on behalf of the Department
and its agencies. The committee provides recommendations to the Assistant Secretary for
Administration and the Chief Financial Officer on: the financial management of SCP activities;
the management, administration, and oversight of the SCP activities; proposals for new or
expanded programs under the SCP; proposals for closing, consolidations, or transfer of existing
activities; and SCP policies and procedures. The recommendations made by the SCP Advisory
Committee are formally documented via memorandum to the ASA and the CFO. The Secretary,
or designee shall, based on the SCP Advisory Committee or other reason thereof, have final
authority to approve new or expanded programs, cost recovery methodologies, resource
allowances, initial agency cost shares, termination of programs, and changes in funding
mechanism for SCPs.

OIG Position
We accept management decision for this recommendation.




16     AUDIT REPORT 50099-0001-23
Section 3:  USDA’s Transfer of Appropriated Funds Under the 
Economy Act 
Finding 4: OCFO Needs to Improve Its Oversight and Guidance for Economy
Act Agreements
OCFO did not have sufficient oversight of Economy Act agreements, which we estimated to
number nearly 600, that transferred agencies’ funds to Departmental Management during
FYs 2011 and 2012.50 In addition, OCFO did not require USDA agencies to maintain adequate
support for charges incurred, or for determinations that their agreements were in the
Government’s best interest and provided goods or services cheaper or more conveniently than
the private sector. These issues occurred because OCFO did not provide sufficient guidance to
USDA agencies on how to properly enter these types of agreements into the Department’s
financial system. OCFO relied upon each agency’s CFO to comply with the requirements of the
Economy Act. However, OCFO did so without issuing Departmental guidance on the proper use
of those transfers, or on the best practices to follow in maintaining documented support for
agreements. As a result, agencies’ CFOs did not fully document the over $100 million in
interagency agreements, during FYs 2011 and 2012, in the Department’s financial accounting
system, particularly in identifying what legal authority was used for those transfers. We also
question 11 of the 26 Economy Act agreements we reviewed, valued at over $43 million,
because the agencies could not support whether they complied with Economy Act requirements
(i.e., best interest of the Government) or how those funds were used.
The CFO Act states that a Department’s CFO is responsible for providing guidance and
oversight for financial management activities and maintaining an integrated accounting system
for Federal funds.51 Federal agencies are prohibited from transferring or sharing resources
between appropriations accounts, unless otherwise authorized by law. 52 The Economy Act
authorizes the transfer of appropriated funds only if Federal agencies ensure, among other
requirements, that (1) the purchase is in the best interest of the Government and (2) the goods or
services cannot be provided by contract from a commercial enterprise (i.e., the private sector) as
conveniently or cheaply as could be done by the Government.53 Though the Economy Act does
not always require an agency to document these determinations, GAO recommends documenting
such information as a sound practice and a desirable internal control.54 In addition, both OMB
and the Department of the Treasury have issued separate guidance requiring requesting agencies
(those that transfer funds) and servicing agencies (those that receive funds) to maintain support
for all charges, such as invoices and performance documentation.55




50
   This includes OCIO, OAO, Office of the Chief Economist and others.
51
   31 U.S.C. § 902.
52
   31 U.S.C. § 1532.
53
   31 U.S.C. § 1535.
54
   GAO, Interagency Agreements: Fiscal Year 1988 Agreements of Selected Agencies were Proper, GAO/AFMD-
88-72(1988). See also 48 C.F.R. Subpart 17.5 (Federal Acquisition Regulation), which requires documentation of
specific determinations and findings for certain types of Economy Act agreements.
55
   OMB Interagency Acquisitions, June 6, 2008, pp 10, 12, and 16; Department of the Treasury Acquisition Bulletin
No. 07-03, May 31, 2007.

                                                                     AUDIT REPORT 50099-0001-23              17
To review the Department’s use of the Economy Act transfer authority, we sampled 26 Economy
Act agreements from 4 USDA agencies; APHIS, FSA, FS, and NRCS.56 Our review found that
24 of the 26 transfers were proper to the extent that the agreements provided for one USDA
agency to obtain goods or services from another USDA agency (see Finding 1 for a discussion of
the 2 improper agreements). However, we found that OCFO did not ensure its system properly
documented and accounted for the universe of Economy Act agreements that had been signed,
and that USDA agencies could justify that an Economy Act transfer was needed and adequately
monitored. These issues are discussed below.

        Documenting and Accounting for Economy Act Agreements
        In September 2012, OCFO provided us with paper copies of about 600 Economy Act
        agreements that transferred approximately $100 million to Departmental Management
        during FYs 2011 and 2012.57 The OCFO official who gave us these documents stated
        that he could not provide any assurance that this comprised all applicable agreements, as
        OCFO did not have a central database to document and track Economy Act agreements.
        We therefore attempted to confirm the accuracy of OCFO’s universe of agreements by
        requesting that the CFOs for the four agencies in our sample provide us with their own
        documentation on Economy Act agreements. However, the agencies provided us with a
        total number of agreements that far exceeded what OCFO had provided. For example,
        OCFO had evidence of 32 Economy Act agreements with FS, valued at over $19 million
        for FYs 2011 and 2012. However, FS’ CFO had evidence to support 201 Economy Act
        agreements for over $147 million for the same time period. We found similar
        discrepancies when we compared the other three agencies’ total number of Economy Act
        agreements to what OCFO had provided.
        OCFO officials stated that several of the agencies’ Economy Act agreements were
        actually used to transfer appropriated funds to the Working Capital Fund, but the
        agencies cited the incorrect transfer authority. While this explanation resolved a majority
        of the discrepancies, it did not account for the entire difference.58 We then worked with
        OCFO and agency officials to try and resolve the remaining discrepancies, but both sides
        could not agree on the total number of Economy Act agreements for FYs 2011 and 2012.
        OCFO officials stated that the financial system was sufficient to identify the universe of
        Economy Act agreements. OCFO noted that, for any funds to be paid within the
        Department, the transaction would be recorded in its financial information system. While
        this is correct, the system did not have a field to show under which funding authority an
        internal transfer was conducted. The financial system only included a field to designate a
        transaction as being “reimbursable,” but did not specify whether the legal authority for
        the agreement was the Economy Act, the Working Capital Fund, or the Greenbook
        authority. We believe this lack of clarity in the system contributed to the OCFO and
        agencies’ difficulty in documenting and accounting for the total number of Economy Act
        agreements.

56
   See Scope and Methodology section for sampling methodology.
57
   OIG initially received 744 agreements; however, all duplicates, amendments, and non-USDA agency transfers
were removed. That brought the total number of agreements to an estimated 601.
58
   The number of misclassified Working Capital Fund transfers was unknown, as OCFO officials stated their system
does not specifically identify the authority being used to make the transfer.

18      AUDIT REPORT 50099-0001-23
           Justification and Monitoring of Economy Act Agreements
           Because transfers between appropriation accounts are prohibited unless specifically
           authorized by law, proper monitoring of Economy Act agreements is critical to
           maintaining fiscal integrity and preventing violations of appropriations laws. The
           Economy Act requires that the agency providing funds ensure that the agreement is in the
           best interest of the Government. In addition, OMB and Treasury guidance require
           monitoring and maintaining documented support for charges incurred. However, we
           found that OCFO had neither issued Departmental policies and procedures on the proper
           use of Economy Act agreements, nor required agencies to adequately support how these
           funds were used.
           The 26 agreements in our sample had an estimated value of over $57 million for
           FYs 2011 and 2012. When we reviewed the documentation associated with the
           agreements, we found that, while 3 were fully supported, 23 lacked support for either a
           determination that it was in the best interest of the Government or for charges incurred.
           Of these 23, 11 had neither element. As an example, 1 of the 11 agreements involved an
           $18 million transaction between two agencies for acquiring a software program, database,
           and consulting services. The requesting agency did not document how the agreement
           was in the best interest of the Government and less costly or more convenient than what
           was offered in the private sector. Also, the requesting agency did not have any support
           (either a receipt or a paid invoice) for the funds used. Because we were unable to review
           adequate support, we question whether these 11 Economy Act agreements involved the
           proper transfer of appropriated funds.
           While both the requesting and servicing agencies stated that they received the goods or
           services described in the Economy Act agreements, neither could provide us with
           adequate support for the claims made against the 11 agreements valued at an estimated
           $43 million (see Exhibit E). OCFO needs to determine if the agencies can provide
           adequate support to accept the amounts as allowable or implement appropriate corrective
           action.
           We discussed this issue with the four agencies’ CFOs. The agency CFOs stated they
           have not received any guidance from OCFO regarding justification or monitoring of
           Economy Act agreements. One CFO incorrectly believed that, once the agency transfers
           the funds to Departmental Management (as the servicing agency), it does not have to
           monitor how those funds were used. A USDA OCFO official agreed that the Department
           had not issued any guidance regarding an agency’s use of Economy Act authority, but
           pointed out that agency CFOs should still be aware of their responsibility to support
           charges, which is a fundamental element of appropriations law. The official also stated
           that OCFO saw Economy Act agreements as a low priority and could not provide
           effective oversight with its current operating budget. OCFO did not prioritize the issue,
           as it assumed that the agencies would know how to process the agreements properly,
           since CFOs have used Economy Act agreements for years.
As a proactive measure, OCFO took immediate action on this issue and issued Departmental
guidance in September 2013 regarding Economy Act agreements.59 Also, the staff that develops


59
     Departmental Regulation 2235-001, Economy Act Agreements, dated September 27, 2013.

                                                                    AUDIT REPORT 50099-0001-23   19
USDA’s financial system has agreed to create a field to designate the authority under which a
fund transfer is conducted, in order to facilitate effective tracking. We commend these actions
and believe that USDA can do more to ensure its transfer agreements are done properly.
In addition to its new guidance, OCFO also needs to ensure adequate monitoring of the agencies’
Economy Act agreements, particularly those that transfer funds to Departmental Management.
OCFO also needs to review the 11 agreements we questioned. Finally, as noted in Finding 1, at
least two Economy Act agreements used by USDA officials were not proper. USDA agencies
need to fully understand the requirements of the Economy Act to prevent an improper transfer of
appropriated funds.

Recommendation 9
Work with the 4 agencies to determine whether those agencies’ payments for the 11 Economy
Act agreements, valued at over $43 million, were used as appropriated, and take appropriate
actions to ensure agencies return any unallowable amounts to the requesting agency.

Agency Response
In OCFO’s response, dated August 22, 2014, the officials stated that they would work with the
four agencies, APHIS, FSA, FS, and NRCS, to review these agreements and also work with them
to take necessary corrective actions by December 30, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 10
Implement a control mechanism for tracking all interagency agreements that transfer
appropriated funds to USDA’s Departmental Management, including identifying the legal
authority for the agreement (i.e., the Economy Act, USDA’s Greenbook authority, the Working
Capital Fund authority).

Agency Response
In their response, dated August 22, 2014, OCFO officials stated that agencies have already been
provided Departmental Regulation No. 2235-001, Economy Act Agreements, on the preparation
of the Economy Act agreements and the use of that authority. The officials also stated that
OCFO is working to build an online system to track interagency agreements, including the
identification of the legal authority for the agreement. This corrective active action will be
implemented by February 28, 2015.60

OIG Position
We accept management decision for this recommendation.

60
  In a subsequent correspondence dated September 3, 2014, OCFO officials clarified that this system would be a
function that would be added to the Department’s current financial management system.

20      AUDIT REPORT 50099-0001-23
Recommendation 11
Implement policies and procedures to ensure adequate monitoring of Economy Act agreements,
particularly those that transfer appropriated funds to Departmental Management.

Agency Response
In their August 22, 2014 response, OCFO officials stated that on September 27, 2013, OCFO
issued Departmental Regulation No. 2235-001, Economy Act Agreements, establishing
Departmental policy for interagency transactions entered into pursuant to the Economy Act,
31 U.S.C. 1535.

OIG Position
We accept management decision for this recommendation.

Recommendation 12
Provide training to agency CFOs to ensure they are aware of the new Department directive and
the roles and responsibilities (e.g., maintaining adequate support) of requesting and servicing
agencies when entering into Economy Act agreements.

Agency Response
In their August 22, 2014 response, OCFO officials stated that they issued the Departmental
Regulation No. 2235-001, Economy Act Agreements, on September 27, 2013 and have provided
this information to all agencies and offices. The officials also stated that by December 30, 2014,
it will work with each agency and office to make sure they are fully knowledgeable of this
Departmental regulation. The agency officials further stated that the onboarding process for new
agency CFOs will include a review of the roles and responsibilities required by this regulation.

OIG Position
We accept management decision for this recommendation.




                                                            AUDIT REPORT 50099-0001-23         21
Scope and Methodology 
Our audit evaluated the Department’s controls over the collection and use of transferred funds
made under its Greenbook authority and the interagency transfers authorized under the Economy
Act. We also assessed the appropriateness of the Department’s transfers utilizing the Working
Capital Fund to pay for staff in FY 2012. We performed our audit work at USDA headquarters
in Washington, D.C., reviewing Departmental Management, OCFO, OSEC, FSA, NRCS, and
FS. We also performed audit work at APHIS’ headquarters in Riverdale, Maryland; and FS
headquarters in Rosslyn, Virginia.61 We performed our fieldwork from October 2012 through
January 2014. The scope of our audit was the Department’s activities involving its use of the
Economy Act and Greenbook authorities in FY 2011 through FY 2012. However, based on the
results of our fieldwork, we expanded our review to include the Department’s FY 2010 and
FY 2013 activities related to its Greenbook authority.

From the approximately 30 Greenbook programs run by the Department, we selected a
judgmental sample of 6 programs that included ITAN, Virtual University, and 4 initiatives listed
under a program called Pre-authorized Funding.62 These six programs represented about
$13.6 million (21 percent) of the total Greenbook charges of $65.9 million transferred to the
Department for FYs 2011 and 2012, combined. The Department requested transfers from almost
all of its 29 agencies (consisting of 15 agencies and 14 staff offices).63 We selected two of the
Greenbook programs, ITAN and Virtual University, to review because they were approved after
USDA was to implement the additional controls GAO recommended in its 2009 report. We
selected four Secretarial initiatives because they comprised over 90 percent of the total program
charges listed under a single Greenbook program called Pre-authorized Funding.64

During FYs 2011 and 2012, about 28 USDA agencies signed an estimated 601 Economy Act
agreements to transfer about $112 million in appropriated funds to Departmental Management.65
We judgmentally selected four agencies (FSA, FS, NRCS, and APHIS) to review, since those
agencies’ agreements—totaling $74 million—made up over half of all funds transferred during
those 2 years. We selected 24 of those agencies’ 122 Economy Act agreements, based on several
factors such as large dollar amounts, lack of signatures on the agreements, agreements that did
not specify legal authority, and agreements related to other Economy Act agreements. Based on
documentation we reviewed at one agency, we selected two additional Economy Act agreements
between OTR and FS, since we determined that these were likely used to counter an
appropriation shortfall for OTR, and did not reimburse FS for a good or service. In total, we
reviewed 26 Economy Act agreements, totaling approximately $57 million.



61
   The FS headquarters moved during our audit and is currently located in the District of Columbia.
62
   There are technically 21 Greenbook programs including Pre-authorized Funding. However, we did not consider
Pre-authorized Funding to be a Greenbook program because it did not incur any costs that needed to be reimbursed.
Since Pre-authorized Funding was comprised of 8-12 different initiatives, which some agencies may or may not
have the legal authority to fund, we decided it would be appropriate to count each Secretarial initiative as a separate
Greenbook program. This brings the total number of Greenbook programs to 28-31, depending on the year.
63
   The newly formed OAO and OHSEC were not charged in FY 2011; however, they were charged in FY 2012.
64
   This included the USDA Cultural Transformation, USDA Administrative Solutions Project, USDA Emergency
Coordinator, and USDA Protective Security Detail.
65
   This total does not include one USDA agency. USDA’s National Appeals Division did not sign any agreements
with Departmental Management during FYs 2011 and 2012.

22       AUDIT REPORT 50099-0001-23
We note that within the universe of Economy Act agreements, funds were transferred to the
Working Capital Fund. Some of those transfers incorrectly cited the Economy Act authority.
While we verified that those transfers were to the Working Capital Fund, we did not perform any
test of controls over the appropriateness or validity of those transfers.

We did not rely upon an Information Technology (IT) system for the universe or the sample of
Economy Act agreements, although we did rely on IT systems for the Greenbook portion of our
audit. The IT systems we did rely upon—the National Finance Center (NFC) Web APPS
system, NFC’s payroll programs, and the Financial Management Modernization Initiative
(FMMI)—were tested in prior audits.66 We did not perform any additional testing to evaluate
those IT systems and make no representation as to the adequacy of the agencies’ IT systems or
reports.

To accomplish our audit objectives we:

     ·   Reviewed applicable laws (including appropriations law), Federal regulations, and OMB
         guidance, policies, and procedures pertaining to the internal controls and processes
         governing Greenbook and Economy Act transfers.

     ·   Evaluated the Department’s oversight procedures for agencies that made transfers
         authorized by the Economy Act to Departmental Management.

     ·   Interviewed USDA Departmental Management and OCFO officials regarding agency
         transfers of appropriated funds for Greenbook program charges and Economy Act
         agreements.

     ·   Interviewed FS, NRCS, FSA, and APHIS procurement and financial staff on their
         process for initiating and monitoring Economy Act agreements with Departmental
         Management for the purchase of goods or services.

     ·   Reviewed the Department’s corrective action taken on a prior GAO report related to
         Greenbook program charges.67

     ·   Requested and reviewed OGC’s legal opinions regarding the propriety of USDA’s
         funding of ITAN pursuant to 7 U.S.C. §2263 as a Greenbook program, and the validity of
         FS and OTR Economy Act agreements signed in FYs 2011 and 2012.

     ·   Interviewed USDA Departmental Management officials to determine how they verified
         that the agencies charged for Greenbook programs received some type of benefit.

     ·   Evaluated Departmental Management’s controls to ensure Greenbook program charges
         met requirements listed in the authority.



66
   Audit Report 11401-0004-11, (September 2012) Statement on Standards for Attestation Engagements, No. 16
Examination for the Department of Agriculture’s National Finance Center, and Audit Report 50401-0003-11,
(November 2012) USDA Consolidated Financial Statements for Fiscal Years 2012, and 2011.
67
   GAO, Internal Control Would Improve Accountability for Certain Centrally Provided (Greenbook) Programs
(GAO-10-82, October 2009).

                                                                   AUDIT REPORT 50099-0001-23                23
     ·   Analyzed the Department’s calculations of agency cost shares for Greenbook programs to
         determine whether charges were necessary, allocated fairly, and adequately documented.

     ·   Interviewed OCFO staff and reviewed its documentation about staff reassigned due to
         appropriation reductions enacted in FY 2011 and FY 2012.

     ·   Interviewed USDA OCFO officials responsible for the Working Capital Fund to
         determine whether USDA properly transferred funds in and out of the Working Capital
         Fund in accordance with statutory requirements.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




24       AUDIT REPORT 50099-0001-23
Abbreviations 
APHIS ...........................Animal and Plant Health Inspection Service
ASA...............................Assistant Secretary for Administration
CFO ...............................Chief Financial Officer
CFR ...............................Code of Federal Regulations
DA .................................Departmental Administration
FMMI ............................Financial Management Modernization Initiative
FS ..................................Forest Service
FSA ...............................Farm Service Agency
FTE ...............................Full-time Equivalent
FY .................................Fiscal Year
GAO ..............................Government Accountability Office
IT ...................................Information Technology
ITAN .............................Intertribal Technical Assistance Network
MS .................................Management Services
NFC ...............................National Finance Center
NIFA .............................National Institute of Food and Agriculture
NRCS ............................Natural Resources Conservation Service
OALJ .............................Office of the Administrative Law Judge
OJO ...............................Office of the Judicial Officer
OAO ..............................Office of Advocacy and Outreach
OCFO ............................Office of the Chief Financial Officer
OCIO .............................Office of the Chief Information Officer
OES ...............................Office of the Executive Secretariat
OGC ..............................Office of the General Counsel
OHSEC .........................Office of Homeland Security and Emergency Coordination
OIG ...............................Office of Inspector General
OMB .............................Office of Management and Budget
OO .................................Office of Operations
OPPM............................Office of Procurement and Property Management
OSDBU .........................Office of Small and Disadvantaged Business Utilization
OSEC ............................Office of the Secretary
OTR...............................Office of Tribal Relations
RD .................................Rural Development
SCP ...............................Shared Cost Programs
U.S.C. ............................United States Code
USDA............................United States Department of Agriculture




                                                             AUDIT REPORT 50099-0001-23   25
Exhibit A:  Summary of Monetary Results 
 The table below identifies the finding number, recommendation number, description of error
 and related dollar amount, and OIG’s management tracking classification associated with the
 monetary results from the report’s findings.

 Finding     Recommendation           Description           Amount             Category
                                      Twenty-one
                                                                          Underpayments
                                       Agencies
     2                4                                        $2,136,279       and
                                   Improperly Funded
                                                                          Over-collections
                                    ITAN Activities
                                                                              Unsupported
                                      Unsupported
                                                                              Costs/Loans,
     4                9               Economy Act            $43,516,842
                                                                               Recovery
                                       Agreements
                                                                             Recommended
                          Total                              $45,653,121




26    AUDIT REPORT 50099-0001-23
Exhibit B:  List of Departmental Management Agencies 
     The table below lists all 12 USDA offices that are included under Departmental Management.

                                          Agency Name                                             Acronym
 1     Departmental Administration                                                                   DA
 2     Office of the Administrative Law Judge                                                      OALJ
 3     Office of Advocacy and Outreach                                                              OAO
 4     Office of the Chief Financial Officer68                                                     OCFO
 5     Office of the Chief Information Officer                                                     OCIO
 6     Office of the Executive Secretariat                                                          OES
 7     Office of Homeland Security & Emergency Coordination                                       OHSEC
 8     Office of Human Resource Management                                                         OHRM
 9     Office of the Judicial Officer                                                               OJO
10     Office of Operations                                                                          OO
11     Office of Procurement and Property Management                                               OPPM
12     Office of Small and Disadvantaged Business Utilization                                     OSDBU




68
 As of July 11, 2013, OCFO is no longer part of Departmental Management and reports directly to the Secretary of
Agriculture.

                                                                     AUDIT REPORT 50099-0001-23             27
Exhibit C:  Amounts to be Refunded to Agencies Charged for ITAN 
in Error  
     The table below lists the 21 USDA agencies and offices and the amounts that should be
     refunded because they were charged for ITAN in error.

                                                                                     Amount to
                                      Agency Name                                        be
                                                                                     Refunded69
        1    Agricultural Marketing Service                                             $163,080
        2    Agricultural Research Service                                              $465,651
        3    Risk Management Agency                                                      $31,372
        4    Foreign Agricultural Service                                                $56,031
        5    Office of Communications                                                     $5,388
        6    Office of the General Counsel                                               $17,724
        7    Economic Research Service                                                   $22,238
        8    National Agricultural Statistics Service                                    $64,415
        9    Office of Inspector General                                                 $33,440
       10    Food and Nutrition Service                                                  $75,916
       11    Animal and Plant Health Inspection Service                                 $438,619
       12    Grain Inspection, Packers and Stockyards Administration                     $38,279
       13    Food Safety and Inspection Service                                         $539,983
       14    Office of the Chief Economist                                                $3,248
       15    Office of Budget and Program Analysis                                        $3,231
       16    Office of the Chief Financial Officer                                       $76,813
       17    Departmental Administration                                                 $29,140
       18    Office of Civil Rights                                                       $7,407
       19    Office of Homeland Security and Emergency Coordination                         $485
       20    Office of the Chief Information Officer                                     $58,189
       21    National Appeals Division                                                    $5,630
            Total                                                                     $2,136,279




69
  The refunds will be paid by the six agencies that had authority to fund ITAN-related activities. Those six
agencies and their unobligated balances were as follows: OAO $332,957; FSA $85,502,174; FS $169,546,821;
NIFA $83,124,978; NRCS $870,679,050; and RD $133,933,890.

28        AUDIT REPORT 50099-0001-23
Exhibit D:  List of Greenbook Programs FYs 2010 through 2012 
The table below lists USDA’s active Greenbook programs for FY 2010, FY 2011, and FY 2012.
                      Greenbook Program                       2010   2011   2012
1890s USDA Initiatives                                         X      X      X
Advisory Committee Liaison Services                            X      X      X
Continuity of Operations Planning                              X      X      X
E-GOV Initiatives HSPD-12                                      X      X      X
E-GOV Initiatives Content Management                           X
Emergency Operations Center                                    X      X      X
Facility and Infrastructure Review and Assessment                     X      X
Faith-Based Initiatives and Neighborhood Partnerships          X      X      X
Federal Biobased Products Preferred Procurement Program        X      X      X
Hispanic-Serving Institutions National Program                 X      X      X
Honor Awards                                                   X      X      X
Human Resources Transformation (includes Diversity Council)    X      X      X
Intertribal Technical Assistance Network (ITAN)                X      X      X
Medical Services                                                      X      X
Personnel and Document Security                                X      X      X
Radiation Safety                                               X
Retirement Processor/Web Application                           X      X      X
Sign Language Interpreter Services                             X      X      X
TARGET Center                                                  X      X      X
USDA 1994 Program                                              X      X      X
Virtual University                                                    X      X
Visitor Information Center                                     X      X      X
Pre-authorized Funding (Initiatives)
        Congressional Travel                                   X      X      X
        Executive Coaching Initiative                          X
        Executive Office of the President                      X      X      X
        FEMA Digital Asset Management                                        X
        Lean Six Sigma Training                                X
        Office of Civil Rights Contract Funding                X
        Office of the Secretary USDA Management Retreat               X
        Peoples Garden                                         X
        Radiation Coordinator                                  X
        USDA 150 Anniversary                                          X      X
        USDA Administrative Solutions Project                         X      X
        USDA Cultural Transformation                           X      X      X
        USDA Emergency Coordinator                             X      X      X
        USDA Protective Security Detail                        X      X      X
        USDA Rural Summit                                      X
        USDA Veterans Program and Training Provost Start-up    X
        White House Details                                                  X
Total Programs                                                 31     28     29


                                                       AUDIT REPORT 50099-0001-23      29
Exhibit E:  Economy Act Judgmental Sample Results  
The table below lists the 26 agreements we reviewed and whether the agencies determined that
the agreements were in the best interest of the Government and monitored how the funds were
used. The table also shows any unsupported costs.

                                                                                               Unsupported
                Best Interest For       Did Not Monitor         Agreement Did Not                 Costs
Agreement        Government               How Funds            Document Best Interest              (in
 Number         Not Documented             Were Used            and Monitor Funds              Thousands)70
    1                                                                   X                              $1,149
    2                    X
    3                                                                       X                                    $4
    4
    5                                            X
    6                                            X
    7                                                                       X                            $2,560
    8                                                                       X                            $2,255
    9                                                                       X                            $2,255
   10                                                                       X                            $5,743
   11
   12                                            X
   13                    X
   14                    X
   15                                                                       X                            $2,652
   16                                                                       X                            $2,652
   17                                            X
   18                                            X
   19                                            X
   20
   21                                            X
   22                    X
   23                                                                       X                            $3,026
   24                    X
   25                                                                       X                           $3,026
   26                                                                       X                          $18,197
                                 Total Dollar amount                                                   $43,517




70
  The unsupported costs in this column relate to the 11 agreements without adequate support to show that the
agreements were in the best interest of the Government or that the agencies monitored how the funds were used.
The amount shown as unsupported does not equal the total dollar amount due to rounding.

30      AUDIT REPORT 50099-0001-23
Agency's Response 




                  USDA’S
            OFFICE OF THE CHIEF
            FINANCIAL OFFICER’S
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 50099-0001-23   31
United States
Department of
Agriculture
                      August 22, 2014

Office of the Chief    TO:           Gil H. Harden
Financial Officer
                                     Assistant Inspector General for Audit
1400 Independence                    Office of Inspector General
Avenue, SW

Washington, DC         FROM:         Jon M. Holladay        -s- John G. Brewer
20250                                Deputy Chief Financial Officer         FOR

                       SUBJECT: Management Response to USDA’s Controls Over Economy Act Transfers
                                and Greenbook Program Charges, Audit No. 50099-0001-23


                      This responds to your request for management’s response to the audit recommendations
                      in the Draft Audit Report No. 50099-0001-23. The management response is attached.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at
                      (202) 720-1893.

                      Attachment




                                                  AN EQUAL OPPORTUNITY EMPLOYER
                 USDA’s Controls Over Economy Act Transfers and
                Greenbook Program Charges, Audit No. 50099-0001-23


Recommendation 1

Provide guidance and training to all Department of Agriculture (USDA) Chief Financial
Officers (CFOs) and appropriate agency staff on the requirements for using the various
transfer authorities available to the Department, including the Economy Act, USDA’s
Greenbook authority, and USDA’s Working Capital Fund authority.

Management Response: On September 27, 2013, the Office of the Chief Financial
Officer (OCFO) issued Departmental Regulation No. 2235-001, Economy Act
Agreements, establishing Departmental policy for interagency transactions entered into
pursuant to the Economy Act, 31 U.S.C. 1535. Departmental Regulation No. 2236-001,
Shared Cost Programs (SCP), was issued on March 14, 2014, identifying and
establishing, where necessary, individuals and organizations responsible for the financial
health of and efficient operation of activities supported by SCPs. OCFO will be
providing additional training to USDA CFOs and appropriate agency staff on the various
transfer authorities.

Date Corrective Action will be Completed: December 30, 2014

Responsible Organization: Associate CFO, Financial Policy and Planning (FPP)


Recommendation 2

Contact all agency CFOs to determine if they understand the proper use of Economy Act
to transfer funds and implement additional training and guidance as necessary.

Management Response: On September 27, 2013, OCFO issued Departmental
Regulation No. 2235-001, Economy Act Agreements, establishing Departmental policy
for interagency transactions entered into pursuant to the Economy Act, 31 U.S.C. 1535.
OCFO will be providing additional training to USDA CFOs and appropriate agency staff
on the proper use of the Economy Act to transfer funds.

Date Corrective Action will be Completed: December 30, 2014

Responsible Organization: FPP, OCFO




                                            2
Recommendation 3

Obtain Office of the General Counsel’s (OGC) opinion on whether USDA needs to
timely notify Congress of its use of the Greenbook authority, rather than the Economy
Act, to transfer FY 2012 funds from FS to OTR to pay $75,000 in salaries and benefits
for OTR staff.

Management Response: We are working with the Office of the General Counsel to
address OIG’s recommendation about the transfer of FY 2012 funds from Forest Service
to the Office of Tribal Relations. We will notify OIG when a determination has been
made.

Date Corrective Action Will Be Completed: November 30, 2014.

Responsible Organization: FPP, OCFO


Recommendation 4

For fiscal years (FY) 2010 through 2012, obligate sufficient funds from the six agencies
that had available appropriations to fund the ITAN related activities, and return the $2.1
million improperly paid by the 21 agencies that funded ITAN activities.

Management Response: OCFO concluded, based on OGC’s counsel, that only the
Office of Advocacy and Outreach, Farm Service Agency, Forest Service, National
Institute of Food and Agriculture, Natural Resources Conservation Service, and Rural
Development had the appropriate authority to pay for the ITAN related activities. The
necessary accounting adjustments were made for FY 2010 through 2012 to fully charge
the six permissible agencies and offices and refunds were processed for the 21 agencies
and offices that improperly funded ITAN activities prior to the close of FY 2013.

Date Corrective Action was Completed: September 30, 2013

Responsible Organization: FPP, OCFO


Recommendation 5

Prior to funding future ITAN-related activities, establish a documented process that
includes a committee review, with participation from OGC, to determine which agencies
have appropriations available to pay for those specific activities or programs and, thus,
ensure that transfers of funds are proper and that USDA does not violate the
Antideficiency Act.



                                             3
Management Response: OCFO has established a process to ensure the transfers from
agencies and staff office are proper and that the Antideficiency Act is not violated.
Departmental Regulation No. 2236-001, Shared Cost Programs (SCP), establishes the
Shared Cost Program Advisory Committee as a high-level, senior management group
established to provide the Assistant Secretary for Administration and the Chief Financial
Officer with advice and counsel with regard to management of the SCPs. On the
Advisory Committee is one representative from OGC to review legal issues that may
arise.

Date Corrective Action was Completed: March 14, 2014

Responsible Organization: FPP, OCFO


Recommendation 6

Work with OGC to determine whether there is legal support to maintain the remaining
Greenbook programs, and to ensure participating agencies and offices have authority to
fund those programs.

Management Response: OCFO has established a process to confirm the legal support
for all SCP; and the agencies and offices have the proper authority to fund those
programs. Departmental Regulation No. 2236-001, Shared Cost Programs, establishes
the Shared Cost Program Advisory Committee. On the Advisory Committee is one
representative from OGC to opine on which agencies and offices having the specific
authorities to fund the SCPs. OGC opined on the FY 2014 SCPs through a memorandum
to the Deputy Chief Financial Officer dated May 5, 2014, determining these SCPs all met
the requirements of 7 U.S.C. 2263 and that the cost distribution methods were acceptable.

Date Corrective Action was Completed: May 5, 2014

Responsible Organization: FPP, OCFO


Recommendation 7

Determine, in consultation with OGC, whether Greenbook program charges for FY 2010
through FY 2012 were proper, including whether the Office of the Secretary (OSEC)
should have been charged for these programs. If necessary, perform accounting
adjustments for agencies and offices that were not charged properly.

Management Response: As noted above, OGC opined on the FY 2014 Shared Cost
programs and determined that the SCPs for the FY 2014 program cycle were proper.
Departmental Regulation No. 2236-001, Shared Cost Programs, establishes the Shared
Cost Program Advisory Committee. These same programs have been in place since at
                                            4
least 2010 and have remained unchanged during this period. The review by OGC
included the revised income recovery plan for the ITAN program. It was determined that
OSEC should have been charged for these programs. Accounting adjustments were
performed in September 2013 that charged OSEC for their applicable shares and refunds
were given to the agencies and offices.

Date Corrective Action was Completed: September 30, 2013

Responsible Organization: FPP, OCFO


Recommendation 8

Work with Departmental Management and OGC to develop and implement a process to
establish, review, and fund USDA’s Greenbook programs. This process should include
procedures for determining and documenting the benefits provided by each program;
obtaining guidance from OGC on which agencies and offices have available
appropriations for a proposed program; and to fairly allocate program costs.

Management Response: OCFO has established a process to establish, review, and fund
USDA’s Greenbook programs. Departmental Regulation No. 2236-001, Shared Cost
Programs, establishes the Shared Cost Program Advisory Committee. The SCP
Advisory Committee serves as the primary representative body for Departmental Under
and Assistant Secretaries whose agencies reimburse for programs administered on behalf
of the Department and its agencies. The SCP provides recommendations to the Assistant
Secretary for Administration and the Chief Financial Officer on:
    • the financial management of SCP activities, including resource estimates, cost
        recovery methodologies, and reimbursements;
    • the management, administration, and oversight of the SCP activities;
    • proposals for new or expanded programs under the SCP;
    • proposals for closing, consolidations, or transfer of existing activities; and
    • SCP policies and procedures.

Recommendations made by the SCP Advisory Committee are formally documented via
memorandum to the Assistant Secretary for Administration and the Chief Financial
Officer. The Secretary, or designee shall, based on the SCP Advisory Committee or
other reason thereof, have final authority to approve new or expanded programs, cost
recovery methodologies, resource allowances, initial agency cost shares, termination of
programs, and changes in funding mechanism for SCPs.

Date Corrective Action was Completed: March 14, 2014

Responsible Organization: FPP, OCFO


                                            5
Recommendation 9

Work with the four agencies to determine how those agencies payments for the 11
Economy Act agreements, valued at over $43 million, were used and take appropriate
actions to ensure agencies return any unallowable amounts to the requesting agency.

Management Response: OCFO will work with the four agencies, Animal and Plant
Health Inspection Service (APHIS), Farm Service Agency (FSA), Forest Service (FS),
and Natural Resources Conservation Service (NRCS), to review these agreements and
work with them to take necessary corrective actions.

Date Corrective Action will be Completed: December 30, 2014

Responsible Organization: FPP, OCFO, APHIS, FSA, FS, and NRCS


Recommendation 10

Implement a control mechanism for tracking all interagency agreements that transfer
appropriated funds to USDA’s Departmental Management, including identifying the legal
authority for the agreement (i.e. the Economy Act, USDA’s Greenbook authority, the
Working Capital Fund authority).
Management Response: Agencies have already been provided the guidance on the
preparation of the Economy Act agreements and the use of that authority covered in the
Departmental Regulation No. 2235-001, Economy Act Agreements. OCFO is working to
build an online system for tracking interagency agreements.

Date Corrective Action will be Completed: February 28, 2015

Responsible Organization: Associate CFO, Financial Systems, OCFO


Recommendation 11

Implement policies and procedures to ensure adequate monitoring of Economy Act
agreements, particularly those that transfer appropriated funds to Departmental
Management.

Management Response: On September 27, 2013, OCFO issued Departmental
Regulation No. 2235-001, Economy Act Agreements, establishing Departmental policy
for interagency transactions entered into pursuant to the Economy Act, 31 U.S.C. 1535.

Date Corrective Action was Completed: September 27, 2013

Responsible Organization: FPP, OCFO
                                           6
Recommendation 12

Provide training to agency CFOs to ensure they are aware of the new Department
directive and the roles and responsibilities (e.g. maintaining adequate support) of
requesting and servicing agencies when entering into Economy Act agreements.

Management Response: OCFO issued the Departmental Regulation No. 2235-001,
Economy Act Agreements, on September 27, 2013 and has provided this information to
all agencies and offices. OCFO is working with each agency and office to make sure
they are fully knowledgeable of this Departmental Regulation. The onboarding process
for new agency CFOs will include a review of the roles and responsibilities required by
this regulation.

Date Corrective Action will be Completed: December 30, 2014

Responsible Organization: FPP and USDA CFOs




                                             7
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
